audit report



Return to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the City of La Joya, Texas
GR-80-99-020 
July, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
On February 5, 1999, the Office of the Inspector General, Audit Division, issued a warning letter (See Attachment 2) on grants awarded to The city of La Joya, Texas, by the Office of Community Oriented Policing Services (COPS).  The city of La Joya was awarded a grant totaling $43,082 to rehire one full-time officer under the Funding Accelerated for Small Towns (FAST) program and three supplemental grants totaling $293,152 under the Universal Hiring Program (UHP) to hire seven full-time officers. As of May 31, 1999, the city of La Joya had been reimbursed $172,846.

	Grant guidelines require that each grantee establish and maintain an accounting and financial records system to accurately account for funds awarded.  Such a system should:

present and itemize approved costs of salaries and benefits, and show the actual costs of salaries and benefits;

	assure responsible use of grant funds;

	assure that funds are spent in conformance with the grant conditions; and

	provide the necessary information for periodic review and audit.

On May 17, 1999, we returned to the city of La Joya to determine if the audit could be conducted.  After discussions with the Chief of Police, we concluded that the audit could not be conducted for the reasons listed below.

The city of La Joya could not show, through documentation such as payroll records, the total number of officers employed during the grant.  Without this documentation, we could not determine if the city of La Joya maintained the number of officers that it employed on the baseline date.  

	The city of La Joya did not base reimbursement requests on payroll registers.  The Chief of Police told us that he calculated reimbursements by taking the number of officers times the number of hours scheduled times the officers hourly rate and multiplying the result by 75 percent.  The city of La Joya could not provide us all of the time and attendance records or payroll registers.  Therefore, we could not readily determine if the reimbursement requests were accurate because they were not supported by time and attendance records.

	We were unable to review personnel files because the city of La Joya was unable to locate them.  Without the personnel files, we could not verify the date the officer was hired, the date the officer was sworn, or the officer's salary.  The Chief of Police told us that a former employee either misplaced or took the records.  He told us that they had exhausted all sources in locating the records.

	The grantee commingled grant funds.  Therefore, we could not determine if expenditures were in compliance with grant terms and conditions.

Because the city of La Joya could not provide us with the critical records previously described, and we were not able to apply other auditing procedures to satisfy ourselves that grant funds were spent in accordance with grant terms and conditions.  The scope of our work was not sufficient to enable us to determine if the city of La Joya was in compliance with the grant terms and conditions.  Therefore, we are questioning all funds received by the city of La Joya as unsupported and recommending that future funds be withheld as funds to better use.